April 28, 2011

DEAN GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Management Advisory – Mystery Shopper Program
        (Report Number HR-MA-11-002)

This report presents the results of our review of the U.S. Postal Service’s Mystery
Shopper Program (Project Number 11YG022HR000). This was a self-initiated review
conducted in response to an employee complaint received through our Hotline. Our
objective was to determine whether the Mystery Shopper Program was compromised
because of internal control weaknesses. This review addresses financial risk. See
Appendix A for additional information about this audit.

The Postal Service uses the Mystery Shopper Program as a diagnostic tool to measure
conditions that impact customer satisfaction, promote safety, educate customers about
products and services, and foster revenue growth. Management includes the program
results in the National Performance Assessment (NPA) score, which is part of the Pay
for Performance (PFP) evaluation system. The program uses independently contracted
individuals to pose as customers (known as mystery shoppers) to evaluate Post Offices.
The Postal Service uses a contractor who specializes in providing mystery shopper
services to manage the program. The contractor recruits mystery shoppers via its
website, and the Post Office evaluations are supposed to be conducted anonymously.

Conclusion

We determined that the integrity and objectivity of the Mystery Shopper Program was
compromised, because information regarding the program is posted on the contractor’s
website where it is accessible to the general public. Specifically, we found that
information regarding mystery shop sites, as well as the dates and scenarios of
scheduled evaluations, was available to anyone who accessed the contractor’s website.

Mystery Shopper Program was Compromised

We found that in January 2011, a Postal Service employee was able to enroll as a
mystery shopper on the contractor’s website. Although the employee did not complete a
Post Office evaluation, the employee was allowed access to information regarding the
locations, dates, and scenarios for scheduled mystery shop evaluations. Upon
Mystery Shopper Program                                                                              HR-MA-11-002



accessing the information, the employee distributed it to 44 Postal Service unit and
retail managers via e-mail. This occurred because the information is available to the
general public on the contractor’s website.1 As a result, advance notice of upcoming
mystery shop evaluations was accessible, which compromised the objectivity of the
program. We also found that three other employees enrolled as mystery shoppers on
the contractor’s website between November and December of 2010;2 however, none
completed a Post Office evaluation.

We recommend the vice president, Delivery and Post Office Operations:

1. Modify the Mystery Shopper Program contract and implement internal controls to
   ensure advance notice of dates, sites, and scenarios for mystery shopper
   evaluations are not available to Postal Service employees and the general public.

2. Consult with Supply Management to determine whether the Postal Service is entitled
   to a refund as a result of the contractor allowing unauthorized access to information
   regarding the mystery shopper program on its website.

Management’s Comments

Management agreed with the findings and generally agreed with the recommendations,
stating they have taken steps to ensure information about Postal Service shop sites,
dates, and scenarios are not made available to employees and the general public.
Specifically, the contractor has blocked access to its mystery shopper job boards, and
systems were put in place to ensure only individuals with proper authorization can
access shopper schedules and other related information. Additionally, management
determined that any damages resulting from the objectivity of the Mystery Shopper
Program being compromised are immaterial given that the accessibility of information
about Postal Service shop sites was isolated and limited in nature. Therefore,
management will not seek payment of money, the adjustment or interpretation of
contract terms, or other relief related to the mystery shopper contract. See Appendix B
for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and corrective actions should resolve
the issues identified in the report. With regard to management’s determination that the
damages were immaterial, the OIG was not able to determine how isolated or limited in
nature the compromise of the Mystery Shopper Program was. However, based on
management’s response, they have assessed the damage to the Postal Service and

1
  We researched six companies on the Internet that provide mystery shopper services. All six recruit online for
mystery shoppers; however, none provided information on shop assignments to the general public. The companies
require interested individuals to apply to be mystery shoppers before they provide them with any shop information.
2
  An additional Postal Service employee who enrolled as a mystery shopper with the previous Mystery Shopper
Program contractor continued to receive e-mails about available Post Office shop assignments after the Postal
Service awarded the current contract.


                                                         2
Mystery Shopper Program                                                      HR-MA-11-002



are satisfied that the contractor has adequately addressed the issue. As a result, we
believe management’s actions meet the intent of the recommendation.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Greg G. Graves
    Richard W. Rudez
    Corporate Audit and Response Management




                                            3
Mystery Shopper Program                                                                               HR-MA-11-002




                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Mystery Shopper Program uses independently contracted individuals who visit Post
Offices as customers and document their experiences through a questionnaire. Mystery
shopping is intended to provide the Postal Service with an objective view of retail
transactions through anonymous third-party assessments of the customer experience.
Such assessments are consistent with the postmaster general’s emphasis on improving
customer service.

According to Postal Service’s Handbook PO 209, Retail Operations Handbook, mystery
shops are conducted at offices that generate $500,000 or more in annual walk-in
revenue or are in the top 20 percent of the highest revenue-producing offices within a
district. Using these criteria, mystery shops occur at about 8,800 retail units, eight times
a year, for a total fiscal year count of about 70,000.

The Postal Service’s mystery shop process involves using a questionnaire that is
divided into six weighted categories: waiting time in line, hazardous materials, product
offerings, product explanations, promotion and merchandising, and image. Additionally,
mystery shopper results provided to the Postal Service include the amount of revenue
lost when retail associates do not ask appropriate questions. Further, the information
gleaned from “shopped” Post Offices is disseminated through Postal Service systems,
such as the Retail Customer Experience folder in the Retail Data Mart of the Enterprise
Data Warehouse and through the weekly Retail Digest. The Retail Customer
Experience folder provides mystery shopper results in various reporting formats. The
Retail Digest includes recommended dialogue for mystery shopper service talks, as
appropriate. Both resources provide useful feedback to postmasters and managers who
want to improve the customer experience. As previously stated, program results also
measure the effectiveness of retail operations under the NPA, which is part of the PFP
evaluation system.3

No current Postal Service employees or those separated from the Postal Service for
less than 1 year can act as mystery shoppers based on a written agreement required by
the contractor. In addition, Postal Service policy4 prohibits management from attempting
to identify mystery shoppers in an attempt to discredit shopper evaluations.




3                                                                                                            ®
  A web-based system that collects performance-related metrics, such as retail revenue, on-time Express Mail
delivery, and so forth, from source systems across the organization. These metrics are translated into web-based
balanced scorecards that can be used to monitor the performance of both the entire enterprise and of individual units
across the nation. NPA is a standalone program that supports the PFP program and the Performance Evaluation
System.
4
  PO-209, September 2009.


                                                          4
Mystery Shopper Program                                                         HR-MA-11-002



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Mystery Shopper Program was
compromised as a result of internal control weaknesses.

Our scope was the Postal Service’s Mystery Shopper Program, including the mystery
shop process, the availability of information on mystery shop evaluations, how
individuals are recruited as mystery shoppers, and how management uses mystery
shopper results.

To accomplish our objective, we reviewed applicable Postal Service policies and
regulations. We also obtained and reviewed information posted on the Postal Service’s
intranet regarding the Mystery Shopper Program. In addition, we conducted an Internet
search to obtain and review information on companies that provide mystery shop
services. Lastly, we relied on information gathered by our Office of Investigations.

We conducted this between March and April 2011 in accordance with the Council of the
Inspectors General on Integrity and Efficiency, Quality Standards for Inspection and
Evaluation. We discussed our observations and conclusions with management on
March 28, 2011, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              5
Mystery Shopper Program                                   HR-MA-11-002




                      APPENDIX B: MANAGEMENT’S COMMENTS




                                      6
Mystery Shopper Program       HR-MA-11-002




                          7
Mystery Shopper Program       HR-MA-11-002




                          8
Mystery Shopper Program       HR-MA-11-002




                          9
